<html>
<title> - EXAMINING NEXT STEPS FOR. U.S. ENGAGEMENT IN AFGHANISTAN</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]




 
                        EXAMINING NEXT STEPS FOR.
                     U.S. ENGAGEMENT IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2021

                               __________

                           Serial No. 117-24

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
      


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
44-687 PDF            WASHINGTON : 2021                             
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                     David Rapallo, Staff Director
              Daniel Rebnord, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Peter Welch, Vermont                 Glenn Grothman, Wisconsin, Ranking 
Henry C. ``Hank'' Johnson, Jr.,          Minority Member
    Georgia                          Paul A. Gosar, Arizona
Mark DeSaulnier, California          Virginia Foxx, North Carolina
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Clay Higgins, Louisiana
Jackie Speier, California

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on May 20, 2021.....................................     1

                                Witness

Ambassador Zalmay Khalilzad (Invited), Special Representative for 
  Afghanistan Reconciliation Department of State
Oral Statement...................................................     4

Written opening statements and statements for the witness are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

No additional documents were entered into the record during this 
  hearing.


                        EXAMINING NEXT STEPS FOR

                     U.S. ENGAGEMENT IN AFGHANISTAN

                              ----------                              


                         Thursday, May 20, 2021

                   House of Representatives
          Committee on Oversight and Reform
                          Subcommittee on National Security
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 9:13 a.m., in 
room 2154, Rayburn Office Building, Hon. Stephen Lynch 
[chairman of the Subcommittee] presiding.
    Present: Representatives Lynch, Johnson, DeSaulnier, 
Grothman, Foxx, Gibbs, and Higgins.
    Mr. Lynch.[Presiding.] Again, good morning. The hearing 
will come to order.
    The chair is authorized to declare a recess of the 
committee at any time.
    I will now recognize myself for an opening statement.
    Good morning, everyone. First, I would like to thank our 
special witness, U.S. special representative for Afghan 
reconciliation, Zalmay Khalilzad, for joining us once again. 
Thank you as well for your service to our country. Your 
perspective, especially before this subcommittee, has been 
extremely helpful in informing the decisions that members on 
this subcommittee have to make, so we are greatly appreciative 
of your willingness to help this committee with its work.
    Today's hearing will examine President Biden's landmark 
decision to withdraw all remaining U.S. military forces, 
approximately 3,500 troops, from Afghanistan by September. When 
announcing this historic decision last month, President Biden 
underscored that the United States has achieved its primary 
objective for launching Operation Enduring Freedom in 2001, 
``to ensure Afghanistan would not be used as a base from which 
to attack our homeland once again.'' I certainly share 
President Biden's desire to bring a responsible end to 
America's longest war.
    Since 2001, more than 2,400 U.S. servicemembers have made 
the ultimate sacrifice, and over 20,000 have been wounded in 
support of U.S. military operations in Afghanistan. Nearly two 
decades of war in Afghanistan have also cost U.S. taxpayers 
more than $873 billion, including an estimated $144 billion on 
reconstruction costs alone. No matter how thoroughly 
considered, however, the withdrawal of U.S. forces from 
Afghanistan will come with significant consequences for our 
national security, the long-term viability of the Afghan state, 
and the future stability of the region, especially in the 
absence of any internal Afghan peace agreement. As members of 
the Oversight Committee, it is our job to ensure that those 
consequences are recognized and those risks are minimized to 
the greatest extent possible, while continuing to promote the 
responsible stewardship of U.S. taxpayer resources.
    For example, during our subcommittee hearing earlier this 
Congress with the Afghanistan Study Group, former chairman of 
the Joint Chiefs of Staff, General Joe Dunford, and former 
Senator Kelly Ayotte from New Hampshire cautioned that without 
a U.S. military presence in country, our intelligence and our 
quick strike capabilities against al-Qaeda, against the Islamic 
state in Khorasan Province, and other terrorist groups will 
likely be significantly diminished. Several weeks later, 
special inspector general for Afghanistan reconstruction, John 
Sopko, testified before this subcommittee that regardless of 
our military footprint, the Afghan government will continue to 
need substantial U.S. and donor assistance to sustain its 
security and defense forces, as well as its fledgling 
political, economic, and civic institutions, or risk eventual 
collapse.
    So, I am encouraged that the Biden Administration has made 
clear that, notwithstanding our scheduled withdrawal 
militarily, the United States will continue to provide vital 
civilian and humanitarian assistance to the Afghan government 
and to the Afghan people. Last month, Secretary of State 
Anthony Blinken announced that the Biden Administration will 
allocate $300 million in additional aid for economic 
development, anti-corruption, women's empowerment, and other 
essential programs in Afghanistan. However, without a U.S. 
security presence on the ground in Afghanistan, it will become 
increasingly difficult, but not impossible, for independent 
auditors, such as Special Inspector General Sopko and his team, 
to conduct oversight of U.S. taxpayer-funded assistance and 
development programs in Afghanistan. To that end, the 
Administration should begin planning now, not when U.S. forces 
have already left, to ensure that proper oversight mechanisms 
and safeguards are in place to promote the effective and 
responsible use of taxpayer resources in Afghanistan.
    Once again, I would like to thank Ambassador Khalilzad 
again for testifying before our subcommittee today. With that, 
I will now yield to our ranking member, the gentleman from 
Wisconsin, Mr. Grothman, for his opening remarks.
    Mr. Grothman. Thank you. I would like to thank Chairman 
Lynch for holding another hearing on Afghanistan. We had one a 
little while ago. On the last hearing, I think you didn't see 
me or whatever, and I didn't give a closing statement. I wanted 
to point out at the last hearing that I, at least personally, 
did not feel it was necessary to leave Afghanistan right away, 
and I say that not as someone who was thrilled we went there in 
the first place. I was never a George Bush fan of getting 
involved in Afghanistan in the first place. But I am worried 
about our allies, people who have worked with us in 
Afghanistan, as well as future people who, when the United 
States gets involved in a mission, do they feel that the United 
States is in it for the long haul.
    I would like to thank the Ambassador for being here. I know 
you are very busy. President Biden announced his intentions to 
withdraw by September 11th. I would prefer to see the date not 
set for one of such significance and remembrance. Troops began 
to withdraw on the first date originally set by the Trump 
Administration. In fact, this withdrawal would not be possible 
without the leadership from President Trump. Between his 
efforts to bring peace to Afghanistan and numerous deals to 
normalize relations between the Arab world and Israel, 
President Trump's foreign policy was very successful.
    But we are here today to discuss America's longest war. For 
20 years, the U.S. has had a military presence in Afghanistan, 
taking over 100,000 soldiers. We have lost almost 2,500 
soldiers, and over 20,000 are injured. We owe these soldiers 
our sincerest gratitude. I think there are probably very few 
Americans who could not name at least one person they know who 
died in Afghanistan. The decision for withdrawal has been 
contemplated over three Administrations. President Trump 
finally took concrete steps to ensure the withdrawal, and 
hopefully we will not have any negative consequences.
    He conditioned our withdrawal on the Taliban disavowing al-
Qaeda, the prevention of Afghanistan becoming a safe haven for 
terror, and begin working toward a broader peace. President 
Biden's troop withdrawal is unconditional, meaning perhaps the 
Taliban does not have to do that. We will ask more questions of 
that today, but this withdrawal needs to be done safely with 
both the interests of the U.S., the Afghan people, and our 
allies all being kept in mind.
    Our witness is on the front lines of ensuring this happens. 
We must prioritize a withdrawal that stifles potential 
violence, protects against the vacuum of fear, and maintains 
regional stability as well as maintains social gains. We must 
ensure social gains made by Afghan women and girls. We must 
ensure that Afghanistan and the Taliban are not the next Israel 
and Hamas. Through the groundwork laid by President Trump, I 
believe this is possible.
    After the troops are gone, our job in Congress is not over. 
It is likely the American taxpayer will continue to provide 
assistance to the Afghan government for years to come. What we 
have heard from others, like the special inspector general for 
Afghan reconstruction, this assistance must be conditional. 
Sometimes the check is mightier than the sword. In a country 
plagued by corruption, it is vital taxpayer assistance does not 
fall into the hands of terrorists and drug runners. I look 
forward to discussing these topics today.
    Mr. Lynch. I thank the gentleman. The gentleman yields 
back. And now I would like to welcome our witness. Today we are 
joined by Ambassador Zalmay Khalilzad, who is the special U.S. 
representative for Afghanistan reconciliation at the Department 
of State. Ambassador, thank you for appearing before us again 
today. We look forward to your testimony.
    It is the custom and practice of our committee that our 
witnesses be sworn, so could you please stand and raise your 
right hand?
    Ambassador, do you swear or affirm that the testimony you 
are about to give is the truth, the whole truth, and nothing 
but the truth, so help you God?
    Mr. Khalilzad. I do.
    Mr. Lynch. Let the record show that the witness has 
answered in the affirmative. We thank you, and without 
objection, your written statement will be made part of the 
record.
    With that, Ambassador, you are now recognized for a five-
minute recitation of your oral testimony.

     STATEMENT OF THE HONORABLE ZALMAY KHALILZAD, SPECIAL 
         REPRESENTATIVE FOR AFGHANISTAN RECONCILIATION

    Mr. Khalilzad. Thank you, Mr. Chairman, Ranking Member, and 
distinguished members of the committee. I welcome this 
opportunity to brief you about America's strategy in 
Afghanistan.
    With the President's decision to withdraw the remaining 
U.S. forces by September 11th, we are entering a new phase in 
our partnership with Afghanistan. Our objectives for this phase 
include, one, safely withdraw our remaining forces, leaving 
Afghan forces in the best position possible to defend 
themselves, and security for Afghans who are at risk because 
they worked with us; two, promote a political settlement and 
oppose the imposition of a government by force--we seek a 
settlement that protects the rights of all Afghans, including 
women, children, and minorities; three, prevent Afghanistan 
from becoming a platform for terrorists threatening the United 
States or our allies; four, promote regional cooperation, 
including connectivity, trade, and economic development to 
shift the country to a peacetime mindset, and give the region a 
stake in Afghanistan success.
    Based on these objectives, we are, one, building 
international support for a political settlement that would 
have broad support in Afghanistan; two, encouraging unity among 
Afghan leaders and the Islamic Republic of Afghanistan side; 
three, sustaining military, political, and economic support for 
Afghanistan; four, incentivizing the Taliban to reduce 
violence, accelerate negotiations for a political settlement, 
and agree to a comprehensive and permanent cease-fire; five, 
strengthening our cooperation against terrorism with countries 
in the region through enhanced monitoring and response 
capabilities; and six, promoting economic connectivity, trade, 
and development between Central Asia, Afghanistan, and South 
Asia.
    Mr. Chairman, the Taliban face a fundamental choice between 
two very different futures. They can enhance and embrace a 
negotiated path to peace, make the transition from a violent 
insurgency to a political movement, and be part of a nation 
that enjoys respect in the global community. But if they pursue 
a military takeover, they will face isolation, regional 
opposition, sanctions, and international opposition, and our 
allies' support to Afghan security forces will continue.
    I want to thank Qatar for hosting the Afghan negotiations. 
We are working closely with the United Nations to enhance its 
role, which is an important one due to its expertise on matters 
such as cease-fires and process design. We welcome the United 
Nations, Turkey's, and Qatar's willingness to co-convene high-
level dialog and negotiations in Istanbul. The parties need to 
agree to a date as soon as possible, and we expect them to come 
prepared with concrete proposals. The opportunities are in 
place, the international will to assist is robust, and both 
Afghan government leaders and the Taliban need to do their part 
to ensure this historic moment is not lost.
    Mr. Chairman, Pakistan has an important role to play. We 
remain in close touch with Pakistan's leaders, pressing them to 
exercise their considerable leverage over the Taliban to reduce 
violence and support a negotiated settlement. I believe 
Pakistan understands that a protracted war in Afghanistan is 
not in its interest. As you know, we have already begun the 
process of withdrawing our remaining forces. The withdrawal so 
far has taken place without significant incident, and we expect 
this to continue. However, we are prepared to respond 
forcefully if attacked and have made this very clear.
    Mr. Chairman, we are building an international consensus in 
support of a political settlement in Afghanistan. We recently 
had productive meetings with Russia, China, and Pakistan, and 
separately with our European allies, and released powerful 
joint statements calling on the two sides to reduce violence 
and engage seriously in negotiations, and on the Taliban not to 
pursue a spring offensive. All our partners have made clear 
that a peaceful Afghan nation, resulting from dialog and 
negotiations, and not from force, can count on material 
assistance, support, and mutually beneficial relationships. 
With the support of Congress, we are committed to maintaining 
substantial security assistance through the Afghan Security 
Forces Fund. Our NATO allies and partners are likewise 
committed to stand with Afghanistan, its people, and its 
institutions in promoting security.
    We have heard justifiable concerns regarding the safety of 
the thousands of Afghans who have worked with our diplomats and 
soldiers over the past 20 years. As Secretary Blinken has made 
clear, we are working hard to ensure that we have expedited 
considerations for those at risk. At the same time, we must not 
assume the inevitability of a worst-case outcome. Our goal 
should be an Afghanistan in which all the country's people can 
live in peace and security. Ideally, Afghans who have acquired 
education, skills, and international experience will form the 
backbone of a new economy and prosperity for a peaceful 
Afghanistan. Strong measures must be taken to ensure that the 
value of these individuals is recognized and that retaliatory 
acts or formally forsworn. This will be an integral and 
essential part of peace talks and of our discussions with the 
Taliban. We will continue to advocate preserving the gains for 
minorities and for women, including their meaningful 
participation in the ongoing negotiations and their 
representation in society and politics. This is something I 
have worked hard on during my time as Ambassador and in my 
capacity, and the significant progress achieved must not be 
lost.
    The Taliban should also understand that the Afghanistan of 
today is very different than it was 20 years ago. We are 
reconfiguring our counterterrorism capabilities to ensure our 
ability to monitor and address threats emanating from 
Afghanistan. We will maintain intelligence collection in the 
region, and we will continue to work closely with our Afghan 
counterparts. We are developing opportunities for enhanced 
cooperation with regional partners who share our concern and 
are open to cooperation. We will hold the Taliban accountable 
to their commitments to prevent al-Qaeda, and ISIS, or any 
other terrorist group from using Afghanistan as a base for 
attacks against the United States and our allies.
    Please note that the release and safe return home of Mark 
Frerichs, who has been held as a hostage since 2020, is very 
important to Secretary Blinken and to me. Secretary Blinken has 
raised Mark's safe return repeatedly with his counterparts in 
the region, and in my meetings with the Taliban, I have 
demanded his release. I want to take a moment to acknowledge 
the tremendous loss following the recent attacks on a girl's 
school near Kabul. This was a deeply shocking incident. It 
appears that ISIS was responsible, but, ultimately, it is the 
ongoing violence and chaos that makes such attacks possible.
    Mr. Chairman, in conclusion, I want to take a moment to 
thank all U.S. personnel, military and civilian, for the 
sacrifices that they have made to make America more secure from 
threats from Afghanistan given what happened on 9/11, and for 
making Afghanistan a better place, the progress that has been 
made there for transforming Afghanistan, and giving 
Afghanistan's leaders a chance for peace negotiations. Now it 
is up to the Afghans to seize their opportunities. Our troops 
are coming home, and Afghanistan deserves a chance to find its 
own way forward with help and encouragement from its friends, 
especially the United States.
    I look forward to your questions. Thank you, sir.
    Mr. Lynch. Thank you. I will now recognize myself five 
minutes of questions.
    Ambassador Khalilzad, I think in your opening statement, 
you have framed the central question very, very well. You posit 
that either the Taliban can embrace a negotiated path to peace, 
make the transition from a violent insurgency to a political 
movement, and be part of a nation that enjoys respect in the 
global community, or they can pursue a military takeover and 
``face isolation, regional opposition, sanctions, and 
international opprobrium.'' That really does present us with 
two scenarios that might happen. Unfortunately, the Taliban 
have not behaved in a manner that convinces me that they are 
inclined to choose the former, and I think much of that is 
shaped by the teaching in Deobondi and Madrasas in Northern 
Pakistan as well as Southern Afghanistan.
    In the lead inspector general for Operation Freedom's 
Sentinel's most recent quarterly report, U.S. forces in 
Afghanistan reported ``a historic increase in enemy-initiated 
attacks since the signing of the U.S.-Taliban agreement.'' And 
in addition to the violence that you have noted in your opening 
statement, the Defense Intelligence Agency assessed that the 
Taliban is likely to use targeted assassinations in Afghanistan 
``to create security vacuums in the major cities, discredit the 
Afghan government, and highlight the weakness of the Afghan 
security apparatus.'' That has been happening as well across 
Afghanistan.
    Mr. Ambassador, on Tuesday, you testified the Taliban, 
``They seek normalcy in terms of relations, acceptability, 
removal from sanctions, and not to remain a pariah.'' I 
struggle with the duality here. You know, the assurances that 
we receive from the Taliban leadership and their negotiating 
team in Qatar, and the evidence that we have and the reports we 
have from women's groups in Afghanistan, from government 
officials on the ground, and that is supported by the reports 
of our own personnel who remain on the ground in Afghanistan. I 
just have to ask you, what calculus, what evidence has led you 
to conclude that the Taliban would prefer to reach a peace 
agreement with the Afghan government than what we saw back in 
the 90's? They ruled as a pariah in the late 1990's. Why would 
they not be prepared to do so again after resisting the United 
States for two decades?
    Mr. Khalilzad. Thank you, Chairman. That is obviously an 
excellent observation. Skepticism is justified. We will have to 
see what they do. But what I have said is based on what they 
have told me they seek, that they do want to be accepted, to 
have normal relations, to receive assistance from the United 
States, that their country's needs are great and will continue 
to be so. That assistance will be needed, and they do want to 
get out of the blacklist. Some of the leaders are on our list 
and also on the U.N. list. They have repeated this, and that 
they have learned from their mistakes of the past, of the 90's, 
that they were not prepared and they made mistakes for which 
they have paid a high price, 19 years of war and all the rest.
    With regard the commitments they have made, their record so 
far is mixed. They have kept, it is important to keep in mind, 
many of their commitments, particularly not to attack our 
forces after we signed the agreement, and not a single 
American, thank goodness, has lost his life or her life since 
we signed that agreement. So, we have to be prepared for the 
decisions that they make with regard to those choices that they 
face. We can't be driven by wishful thinking that they will 
make the right choice that we would like, but at the same time, 
we shouldn't close the door to that possibility, and confront 
them with opportunity costs for them and for Afghanistan if 
they make the wrong choice.
    Mr. Lynch. Thank you. My time has expired. I now recognize 
the gentleman from Wisconsin, Mr. Grothman, for his questions.
    Mr. Grothman. Thank you. Just to clarify, is that September 
11th a hard date, or if things really go south or the Taliban 
clearly are not acting within the spirit of the agreement, is 
there still wiggle room to extend our presence there?
    Mr. Khalilzad. The President has been quite clear that all 
our forces will be out of Afghanistan by September 11th.
    Mr. Grothman. Even if it is clear that the Taliban have no 
desire to----
    Mr. Khalilzad. I will not speculate about what ifs, but I 
think the President's decision is quite clear.
    Mr. Grothman. I believe the Afghan government has some 
reputation for graft, and obviously we intend to continue a 
financial presence in Afghan. If we are going to continue to 
aid the Afghan government, do we have assurances that the 
United States would perhaps not be giving money, or be giving a 
minimal amount of money, and be buying themselves, reducing the 
chance for graft? We wouldn't be going through organizations 
like the United Nations, which is hardly a model for, you know, 
keeping things. Will the United States do all they can to make 
sure we are buying military equipment, what have you, and we 
are not transferring money through these international 
organizations?
    Mr. Khalilzad. Thank you, sir. Of course we would like to 
be able to provide assistance. We are determined that we would 
like to provide assistance to the Afghans to defend themselves 
and to advance our values, including women's and girls' rights, 
and assistance is critical in that regard, and our partnership 
against terrorism with Afghanistan will also require us to 
provide support, but governance has been a problem. In fact, 
the problems of governance and Afghanistan's corruption is one 
of the challenges, a reason for where we are.
    Mr. Grothman. It is. They only give me five minutes here, 
so.
    Mr. Khalilzad. Oh, sure.
    Mr. Grothman. Would we give them money----
    Mr. Khalilzad. We will do all that we can to make sure that 
the money is spent as intended.
    Mr. Grothman. OK.
    Mr. Khalilzad. And we will have----
    Mr. Grothman. So we will not transfer money through a third 
organization that might have their own corruption problems, and 
we will, insofar as we can, give the Afghan government things, 
not cash to buy things. I guess that is what I am looking for.
    Mr. Khalilzad. Well, we have some obligation to provide 
cash support through institutions that exist, but we pay, 
obviously, close attention to the practices----
    Mr. Grothman. Yes, we will do that minimally. We do that 
minimally. Minimally. I mean, I don't like to give cash to 
third party organizations because third party organizations may 
have their own graft problems. Will we use them minimally, with 
the greatest degree possible, make sure we are giving them 
money, and I don't even like giving money, or we will give 
whatever supplies or food stuffs or whatever that we have to 
give?
    Mr. Khalilzad. Just to be clear, Ranking Member, that we do 
provide salaries for the Afghan security forces----
    Mr. Grothman. Right. Right.
    Mr. Khalilzad [continuing]. Through an arrangement that is 
managed----
    Mr. Grothman. OK. That is fine.
    Mr. Khalilzad. But we pay attention as to the money is 
spent as appropriated.
    Mr. Grothman. Quick question. I don't think the Taliban are 
known for being, you know, all that nice. If the Afghanistan 
regime would collapse, I assume people who helped us would not 
fare that well. How many people do you think would die or what 
would happen to people if the Afghan regime fell?
    Mr. Khalilzad. Well, it depends on different scenarios, but 
the risk to the people who have worked with us has increased. 
We are prepared to provide a detailed briefing to you, 
classified, on the numbers and what we are planning to do.
    Mr. Grothman. OK. I will give you another question. There 
has been a lot of emphasis on this committee on making social 
improvements in Afghanistan, and, particularly, progress for 
women and girls. On the other hand, I think our enemies in the 
Taliban and maybe the members of the Afghan government are not 
thrilled about that. Does this commitment make it more 
difficult for the Afghan government to hang on?
    Mr. Khalilzad. Well, the Afghan government is concerned, 
legitimately, in the aftermath of the decision that the 
President has made, but they respect the decision and would 
like to receive assistance and support, which we are prepared 
to do. There are several futures----
    Mr. Grothman. I know I am over the limit here. Can I ask 
one more question----
    Mr. Khalilzad. Yes, sir. Sorry.
    Mr. Grothman [continuing]. Because you are not really 
answering my question. I talked to a soldier who was over 
there, and his line to me was, ``They hate us.'' I think that 
is not across the board, but I am mindful of that. I think as 
we push them to treat women and girls more like they do in the 
United States, I don't know if that makes it more difficult for 
the Afghan government to hang on, and I am afraid that if the 
Afghan government falls, a lot of people will die.
    Mr. Khalilzad. Right.
    Mr. Grothman. OK. So I wondered is there a tradeoff here 
between making conditions on the way the girls and women are 
treated in Afghan society and the ability of the Afghan 
government to hang on.
    Mr. Lynch. The gentleman's time has expired, but the 
gentleman may answer.
    Mr. Khalilzad. Thank you, sir.
    Mr. Lynch. Briefly, please.
    Mr. Khalilzad. Well, I think that the fact of what the 
government stands for, that includes respect rights of women 
and girls, is the basis also for the support that it is getting 
from the population of Afghanistan. There is a difference of 
views among Afghans on values as well as on political 
philosophy and arrangement, and the Afghans need to come 
together on a formula for how, given the differences in values 
and beliefs, including on human rights, they can co-exist as 
citizens in a single nation. I think that one should not look 
at advocating or respecting, advancing the rights of women and 
girls as a net negative for the government. In my judgment, it 
is a net positive.
    Mr. Grothman. Thank you.
    Mr. Lynch. The gentleman yields back. The chair now 
recognizes the gentleman from Georgia, Mr. Johnson, for five 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman, and thank you, 
Ambassador Khalilzad, for being here today. When President 
Biden announced last month that the U.S. would withdraw all of 
its military forces from Afghanistan, the President insisted 
that the United States would not ``take our eye off the 
terrorist threat,'' and would reorganize our counterterrorism 
capabilities ``from over the horizon.'' Last week, acting 
assistant secretary of defense for Indo-Pacific security 
affairs, David Helvey, testified that the Defense Department 
was working with the State Department to ``reposition our 
counterterrorism capabilities, including by retaining assets in 
the region, to prevent the re-emergence of a terrorist threat 
to the U.S. homeland from Afghanistan.'' Mr. Helvey testified 
that, thus far, the Administration has not reached an agreement 
with regional partners that would provide DOD with the 
necessary access basing or overflight to enable the over-the-
horizon capabilities the Administration envisions.
    Ambassador, as you talk to Afghanistan's neighbors and our 
regional partners about the importance of reaching a peace 
agreement in Afghanistan, are you also talking to them about 
the need for the U.S. to have these over-the-horizon 
capabilities, and has any progress been made on reaching an 
agreement with regional partners in order to establish those 
capabilities?
    Mr. Khalilzad. Thank you, sir. The answer is, yes, I do 
discuss with the neighbors the need for enhanced cooperation 
for monitoring the situation in Afghanistan with regard to the 
future of terror, as well as the ability to strike should that 
decision be made to do so, and there is progress. That is all I 
can say in this setting.
    Mr. Johnson. Given President Biden's deadline for the 
withdrawal of U.S. troops being less than four months away, do 
you have a timeline for when you expect such an agreement?
    Mr. Khalilzad. We have agreement and understandings already 
for enhanced monitoring and continued overflights for both 
monitoring and if strikes should be needed, and this is a work 
in progress. We are confident that although our monitoring 
capability will diminish with the full withdrawal of our 
forces, and that will also affect our strike capability, but 
given this lower level of terrorist threat, that we would be in 
a position to monitor and respond adequately when our forces 
are out of Afghanistan.
    Mr. Johnson. All right. Thank you, sir. Last September, you 
told this subcommittee that, ``With regard to terrorism, al-
Qaeda in this setting, what I can say is that the Talibs have 
taken some steps, based on the commitment that they have made, 
positive steps, but they still have some distance to go.'' Just 
recently, the Defense Intelligence Agency reported that, ``al-
Qaeda continues to rely on the Taliban for protection, and the 
two groups have reinforced ties over the past decades, likely 
making it difficult for an organizational split to occur.'' Mr. 
Ambassador, the Taliban was supposed to cut ties with terrorist 
organizations, such as al-Qaeda, as part of the February 2020 
agreement. Have they done so?
    Mr. Khalilzad. Sir, what I can say in this setting is that 
they have agreed not to allow terrorist groups, including al-
Qaeda, from using Afghan territory to plot an attack on the 
U.S. and coalition countries, and the definition of that has 
been not to host, not to allow training, recruitment, or 
fundraising by these groups. And what I can say, since my last 
briefing to you, there has been further progress by the Talibs 
with regard to what I just described, but we are still not 
satisfied and are pressing more. I would be happy to provide 
greater details in a proper setting.
    Mr. Johnson. Thank you, sir, and I yield back.
    Mr. Lynch. The gentleman yields back. The chair now 
recognizes the gentlewoman from North Carolina, Ms. Foxx, for 
five minutes.
    Ms. Foxx. Thank you very much, Mr. Chairman, and thank you, 
Ambassador, for being here today. Ambassador, you know, the 
American people are very concerned about the treasure we have 
invested in Afghanistan over the years, and what is going to be 
the result after we leave, and there are mixed emotions, of 
course, about our leaving there. But in his speech announcing 
the troop withdrawal, President Biden stated that the U.S. will 
continue to support the rights of Afghan women and girls by 
maintaining significant humanitarian and development 
assistance. And I heard your comments to Representative 
Grothman about your saying that the government wants to 
continue those, although there are differences of opinion. How 
are we going to be able to ensure that any assistance that is 
provided will go toward the intended goal and the intended 
recipients, because I think people are pretty concerned about 
not continuing to waste money. We would like to do humanitarian 
work and make life better for women in Afghanistan, for all the 
people, but how can we know that the money we are spending is 
going to make a difference?
    Mr. Khalilzad. Of course that is the obligation of the 
executive branch, that the money is spent as intended, and we 
intend to maintain a robust embassy and to protect that 
embassy, secure it so that we can perform that responsibility, 
the oversight of money spent, as intended going forward. So I 
understand the concern, I understand that a lot of resources 
have been spent, I understand the ambivalence, but given the 
alternatives available and the decision of the President, the 
choice that he has made, we will continue to advance the values 
that you described, ma'am, and will do our best in terms of 
oversight. And the rationale that I described for the embassy 
is continued operation in Afghanistan.
    Ms. Foxx. President Biden also made a commitment to 
continue providing support to the government of Afghanistan and 
assistance of the national defense and security forces, but we 
also know there has been tremendous corruption in that country 
among the forces. What level could you put on the pervasiveness 
of the corruption within the Afghan security forces? How would 
you describe it?
    Mr. Khalilzad. I think overall, corruption is a serious 
problem. The governance is a serious problem. And, as I said 
before, part of the reason for finding ourselves in the 
position that we have is because of these problems that we have 
not managed and they have not managed to win the war. And we 
have got essentially a stalemate, meaning that we don't see a 
military solution anymore, and that either we have a long war 
or a political settlement. But corruption, in my judgment, will 
continue to be an issue, and we need to do our best and that 
our resources are made conditional on performance with regard 
to corruption, and that is part of an agreement that we have 
with the Afghan government.
    Ms. Foxx. So our presence is going to continue in 
Afghanistan, and so if we are going to continue there, again, 
at what level do you expect that presence to be, and how 
confident are you that we are going to be able to have some 
accountability for the funding that we continue to give them 
given the corruption? How are we going to monitor that? That is 
what we want to know.
    Mr. Khalilzad. Perfectly understandable. It is our 
responsibility, and one mechanism, the key mechanism, will be 
the embassy. There are other mechanisms for making sure that we 
monitor the resources spent on intended goals and projects that 
are being approved, that the money is dedicated for, in fact, 
are taking place as intended. So it is a challenge. I don't 
want to underestimate it, and perhaps it will become more 
difficult, but we are committed to following the law and making 
sure that the money is spent as intended.
    Ms. Foxx. Thank you, Mr. Chairman. I yield back.
    Mr. Lynch. The gentlewoman yields back. The chair now 
recognizes the gentleman from Ohio, Mr. Gibbs, for five 
minutes.
    Mr. Gibbs. Thank you. Thank you, Mr. Chairman. Thank you, 
Ambassador, for being here today. You know, it is going to be a 
difficult thing. We will see how this works to withdraw the 
troops. But in your testimony, you talked about economic 
development and education, which, of course, is essential to 
give people more freedom and protect a struggling democracy. 
And even before 9/11 happened, you know, we had a lot of 
corruption in the opium trade, and poppy farming, and then the 
production of heroin, and I think that has increased 
exponentially over the years. And, Ambassador, we talk about, 
you know, so much corruption. You know, can you relate to us 
about how this illicit drug trade in Afghanistan flows in, and 
in trying to do economic development, you know, are there 
really good prospects for economic development Afghanistan, or 
is it just the drug trade and all the corruption? You know, 
what is the outcome here to bring stability and an ideal end 
state, as the study group talked about, in Afghanistan?
    Mr. Khalilzad. Thank you, sir. Of course, as you said 
correctly, narcotics is one big source of income, and there are 
not only the Afghans. Farmers probably get a small part of that 
income. The traffickers, those who take the opium and turn it 
into heroin and then sell it, they make more money, and the 
involvement of people in Afghanistan and beyond Afghanistan. 
And as long as there is demand, of course, supplies will come.
    And one reason Afghanistan, in my view, has become a place 
as big as it has become, despite our efforts of the last 20 
years, is because one key factor is war, and rule of law is 
obviously limited in the condition of war. And we have tried 
alternative livelihood, eradication, various other programs, 
but the net result hasn't been effective. And one key factor is 
in war, the law cannot be applied effectively throughout the 
country because of the war, and so----
    Mr. Gibbs. Well, let me interrupt you, Ambassador, because 
the Taliban, they are really the beneficiaries of the revenue 
stream for this drug trade, right?
    Mr. Khalilzad. Right. That is one of the sources of income, 
sir, for the Talibs, narcotics, also others who benefit from 
narcotics, but it is a key source of income for the Talibs as 
well.
    Mr. Gibbs. On economic development initiatives, what are 
some possibilities in Afghanistan for economic development? 
What sectors of the economy? What are we looking at? 
Manufacturing? Agriculture? What are the possibilities?
    Mr. Khalilzad. Well, mining has great potential. 
Traditionally, subsistence agriculture has been what 
Afghanistan has had. It has land, it has water, but water is 
not properly managed, so there is great potential for 
alternative livelihood products for which there is demand, and 
they could be produced in Afghanistan. And then location could 
be an asset. That is what we have been focused on, and that if 
there is regional connectivity, which requires peace for it to 
happen, then mining, which is potentially a huge resource 
should it be developed, and increased agriculture, and the rent 
that it could charge as a land bridge between Central Asia----
    Mr. Gibbs. Well, I just wanted to highlight----
    Mr. Khalilzad [continuing]. And those potential sources.
    Mr. Gibbs. I just wanted to highlight that because I think 
that you made a key point. Other countries in the region would 
have to partners in this and rule of law, and then there is a 
possibility of getting capital in there. And that is how you 
really end this problem, concern of us pulling out and 
Afghanistan becoming a terror safe haven again. And so I think 
that is important on the economic side, so I am glad to hear 
there are some possibilities and opportunities there if we can 
get stability and we get private capital coming in from around 
the world, especially our neighbors. That would enhance the 
peace prospects.
    I thank you, and I yield back.
    Mr. Lynch. The gentleman yields back. The chair now 
recognizes the gentleman from Louisiana, Mr. Higgins, for five 
minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Ambassador, thank you 
for appearing before us today. You have a very difficult job, 
sir, and we very much respect your efforts. As a spokesman for 
the citizens that I serve, we have serious concerns about 
continued investment of treasure in Afghanistan because of the 
notorious reputation for corruption. We have lost life and limb 
for 20 years in a region that has been at war with itself for 
9,000 years. I think it is time to bring our troops home. We 
should do so in a strategic manner, and what we leave behind 
should be a sufficient intelligence apparatus to protect 
America from emerging threat that could threaten our homeland 
or our allies abroad. Our investment in American treasure for 
20 years has been the equivalent of about $8 billion a month. 
That as an incredible amount of treasure, and it is time for 
Afghanistan to take care of itself. That is my opinion.
    I would like to ask you, Mr. Ambassador, you know, we are 
talking about the withdrawal of American troops, and many 
Americans envision that as a vacuum of tactical operations, 
capabilities. Please speak to the capabilities of Afghanistan's 
own military assets and the existence of 18,000 or 20,000 
private military contractors that remain in Afghanistan. Please 
speak to their capabilities and give us your thoughts on that, 
please.
    Mr. Khalilzad. Thank you very much, sir. Afghanistan has 
substantial military and security capabilities that they did 
not have 20 years ago, thanks to the taxpayers and the effort 
of the U.S. military and contractors. And it has some 300,000 
large security forces, very substantial, perhaps one of the 
largest special forces of any country in that region, numbering 
close to 40,000. It has significant counterterror capabilities. 
I believe with continued support in the new context of no 
military presence, the Afghan security forces, if politically 
led properly, meaning that the political class does not 
fragment along ethnic or other lines, should do well in terms 
of defending the republic. And so----
    Mr. Higgins. Mr. Ambassador----
    Mr. Khalilzad. Sure.
    Mr. Higgins [continuing]. Thank you for your response. In 
the interest of time here, let me just state for clarification 
that it has been envisioned that the Taliban will become part 
of the political process that you referred to. I personally 
have zero confidence that there will be success of political 
engagement with the Taliban. But let's just say that I am wrong 
and those that want continued American treasure post-withdrawal 
of American troops, let's say they are right. The Taliban is 
making about $40 million a week from heroin. If the Taliban is 
part of the political solution, why would they not be part of 
the financial solution, and I give you the floor, sir, for the 
remainder of my time to respond to that.
    Mr. Khalilzad. Without commenting on the number that you 
mentioned, I believe that if the Taliban joined the political 
process, lived by the rules of the international system, 
meaning observe international law and agree to a formula with 
fellow Afghans about how they can run their country, that will 
be success, in my judgment. If that is achieved, that would be 
success for Afghanistan. That will be good for the United 
States because that would mean that our security will not be 
threatened from Afghanistan, and we would have left a great 
legacy behind for Afghanistan's war to end, a worthy legacy 
given the sacrifices that you referred to, sir, and the 
chairman and others have referred to.
    Mr. Higgins. Thank you, sir. Mr. Chairman, I thank you for 
your Indulgence. My time has expired.
    Mr. Lynch. I thank the gentleman. The gentleman yields.
    Ambassador, I think that most of the concerns expressed by 
the members today have focused on, first of all, the fact that 
with the U.S. withdrawal of security forces, we have also 
withdrawn 13,000 U.S. contractors that provided the services, 
and that infrastructure, those 13,000 contractors, from 
security, to healthcare, to food assistance, rule of law, with 
the withdrawal of that infrastructure, also the oversight and 
the adherence to U.S. contracting laws and the custody of U.S. 
resources in the country were protected. Now that we have 
removed, or we haven't removed them, but they have decided to 
leave since the security forces are leaving, we don't have an 
infrastructure there whereby we can be confident that the money 
that the Administration continues to send into Afghanistan is 
getting to the right people. So that is a major concern.
    Even when we had 100,000 troops on the ground with NATO, 
and with our allies, and the United Nations, it was extremely 
difficult to maintain rule of law and accountability with 
respect to the resources that we were putting into Afghanistan 
because of the level of corruption there. Do we have a plan B? 
You know, this committee and Congress in general has a 
responsibility to make sure that we try, to the best we can, to 
spend whatever resources the American taxpayer allows us to 
contribute to this country, to do so in a responsible way. And 
I just don't see the checks and balances and the oversight 
capacity, and I have heard this from the special inspector for 
Afghan reconstruction, Mr. Sopko. He is very concerned that 
without security forces, he cannot get out to these projects to 
review them.
    We continue to rely upon Afghan or third country nationals 
to go out inspect these projects. Members of this committee, 
including myself, we have done that in the past on a regular 
basis, but I daresay that those opportunities will be few and 
far between now that we have no security going in there. When 
members of this committee went in, including myself, we had 
plenty of military protection when we went into these areas to 
do our inspections. That would be fraught with great hazard if 
we were to try to do that after September. And so, do we have a 
plan B if, one, the Afghan national army is overrun, or, in 
combination with the Taliban's insertion to the government, we 
lose complete control of the resources that we are contributing 
to Afghanistan?
    Mr. Khalilzad. Sir, I hear you loud and clear, and I share 
the concerns that you have expressed. I have been there as 
Ambassador during the early phases, the challenges we faced of 
doing development projects with the security environment in 
which we had to operate, and over time we developed mechanisms 
to do better. But now that a decision has been made, it is 
quite recent, and I think you will have to wait to see. I want 
to assure you that we are working very hard to think about 
alternative futures for Afghanistan and what could happen, and 
how we would operate and carry out the mission that the 
President and Congress decides for Afghanistan, and how the 
mission could be carried out, and how we can spend the 
resources of the taxpayers as intended.
    And the plan is not finished. I think you obviously are 
entitled to receive information and be informed, and we are 
committed to doing that. But I just want to remind ourselves 
that this is a decision that came only a few weeks ago, and 
your state Department people, USAID people, are working hard to 
come up with plans. But we hear your concerns loud and clear, 
and I personally share them as well.
    Mr. Lynch. I thank you for that. And, look, I don't 
discount the extreme difficulty that we are faced with here. 
There are no good choices.
    Mr. Khalilzad. Right.
    Mr. Lynch. But we do have an open line of communication 
with many of the women----
    Mr. Khalilzad. Yes.
    Mr. Lynch [continuing]. In Afghanistan, who are in 
positions of some power and part of the government. And the 
reports that we are getting from them regarding their own 
safety, regarding the opportunities for girls in Afghanistan, 
are extremely fragile right now. There is great fear in many of 
the communities across Afghanistan, but especially in Kabul. 
And so, we have got an onslaught of people who are trying to 
get out because they are known to have been helpful to the U.S. 
government. And so, I am trying to get reassurance that we are 
at least acknowledging the dilemma that we face, and that we 
are taking every reasonable precaution to prevent the worst of 
outcomes from occurring. So, I do want to thank you. I know you 
have worked on this for many, many years, and you have been a 
stalwart advocate for democracy in Afghanistan, and you have 
been outspoken to your own risk in your time in Afghanistan, 
and we appreciate the service that you have rendered to our 
country.
    In closing, again, I want to thank you, Ambassador 
Khalilzad, for your testimony here today. I want to commend my 
colleagues for their insightful observations and their 
important questions. I am sorry. I yield to the gentleman from 
Wisconsin, Mr. Grothman. I did not see you return. Thank you.
    Mr. Grothman. Yes. I would like to thank you for being 
here. Just in closing, I think you could tell from my questions 
I am also very concerned about what happens here, America's 
reputation. People helped us. I think it is simplistic when 
people, including some Republicans, just say, let's get out 
tomorrow. I wasn't thrilled to get in 20 years ago, but we are 
there now. If you need more wiggle room, I am sure there are 
Republicans who would not at all be critical of you for taking 
advantage of that wiggle room. I am worried if the worst would 
happen, the number of people who would die, and if we need more 
flexibility and whatever to prevent them from dying, I 
certainly understand that.
    I strongly hope that insofar as we put money in 
Afghanistan, and I suppose we will put a lot of money in there, 
that we, you know, keep it on a short leash, you know, don't 
send it to any third party organizations that we can't trust 
and that. But I would like to thank you for being here, and I 
hope you don't feel pressure to, like I said, get out before, 
at least the rumors are you don't even have your full team over 
there yet, which is understandable. Every new Administration 
takes a while. But just remember our people and who helped us, 
and remember what would happen if things collapse, and it is 
more important to get it done right than get it done quick. So, 
thank you much for letting me speak again.
    Mr. Lynch. I thank the gentleman. The ranking member yields 
back.
    With that, and without objection, all members will have 
five legislative days within which to submit additional written 
questions for the witnesses through the chair, which will be 
forwarded to the witnesses for their response. And, Ambassador, 
I would ask you to please respond as promptly as you are able.
    Mr. Lynch. This hearing is now adjourned.
    [Whereupon, at 10:18 a.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
